<html>
<title> - CHILD DEATHS DUE TO MALTREATMENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                    CHILD DEATHS DUE TO MALTREATMENT

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2011

                               __________

                           Serial No. 112-HR5

                               __________

         Printed for the use of the Committee on Ways and Means



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
70-889                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                    SUBCOMMITTEE ON HUMAN RESOURCES

                     GEOFF DAVIS, Georgia, Chairman

ERIK PAULSEN, Minnesota              LLOYD DOGGETT, Texas, Ranking
RICK BERG, North Dakota              JIM MCDERMOTT, Washington
TOM REED, New York                   JOHN LEWIS, Georgia
TOM PRICE, Georgia                   JOSEPH CROWLEY, New York
DIANE BLACK, Tennessee
CHARLES W. BOUSTANY, JR., Louisiana












                            C O N T E N T S

                               __________

                                                                   Page

Advisory of July 5, 2011, announcing the hearing.................     2

                               WITNESSES

Kay E. Brown, Director, Education, Workforce, and Income 
  Security, U.S. Government Accountability Office................     7

                                 ______

Tamara Tunie, Actor, ``Law and Order: SVU,'' and Spokesperson, 
  National Coalition to End Child Abuse Deaths...................    18
Theresa Covington, M.P.H., Director, The National Center for 
  Child Death Review.............................................    21
Michael Petit, President and Founder, Every Child Matters 
  Education Fund.................................................    32
Carole Jenny, M.D., Director, Child Protection Program, Hasbro 
  Children's Hospital............................................    45
Jane McClure Burstain, Ph.D., Senior Policy Analyst, Center for 
  Public Policy Priorities.......................................    52

                       SUBMISSIONS FOR THE RECORD

American Public Human Services Association, statement............    97
Andrea Kivolowitz and Ayla Annac, statement......................   108
Childrens Hospital of Pittsburgh of UPMC, statement..............   116
National Association of Social Workers, statement................   118
National Coalition for Child Protection Reform, statement........   125
Skipper Initiative, statement....................................   135
Tiffany Conway Perrin Organization, statement....................   152

 
                    CHILD DEATHS DUE TO MALTREATMENT

                              ----------                              


                         TUESDAY, JULY 12, 2011

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
Room B-318, Rayburn House Office Building, Hon. Geoff Davis 
[Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1721
FOR IMMEDIATE RELEASE
Tuesday, July 5, 2011
HR-5

                 Chairman Davis Announces a Hearing on

                    Child Deaths Due to Maltreatment

    Congressman Geoff Davis (R-KY), Chairman of the Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on child deaths due to 
maltreatment. The hearing will take place at 10:00 a.m. on Tuesday, 
July 12, 2011, in room B-318 of the Rayburn House Office Building.
      
    In view of the limited time available to hear from witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include the U.S. Government Accountability Office (GAO) 
as well as other experts on child abuse and neglect and child 
fatalities due to maltreatment. However, any individual or organization 
not scheduled for an oral appearance may submit a written statement for 
consideration by the Committee and for inclusion in the printed record 
of the hearing.
      

BACKGROUND:

      
    According to State reports, over 1,700 children died nationally in 
FY 2009 due to maltreatment. However, research has shown that these 
reports may substantially understate the number of child victims each 
year. To gain a clearer understanding of this issue, the Government 
Accountability Office (GAO) has reviewed what is known about the 
circumstances of child deaths and near deaths due to maltreatment, 
State approaches to gathering and reporting this information, and what 
the Department of Health and Human Services (HHS) is doing to support 
the collection and accurate reporting of this information. GAO will 
testify about the findings of their review at the hearing.
      
    There are currently several sources of data about child deaths due 
to maltreatment. First, since the 1970s, States have participated in a 
voluntary national data collection system reporting data on 
investigations of maltreatment and information on abused children. This 
system, called the National Child Abuse and Neglect Data System 
(NCANDS), is used by HHS to prepare annual reports on child 
maltreatment. Second, the nongovernmental National Center for Child 
Death Review (NCCDR) acts as a resource center for State and local 
teams that review cases of child deaths. These teams collect and report 
information on child fatalities from all causes, and 37 States 
currently report data to the national database. The NCCDR uses this 
data to focus attention on child fatality risks and to develop 
strategies to prevent fatalities in the future. Third, States also have 
data on child fatalities from sources such as law enforcement reports, 
death certificates, or medical records.
      
    In announcing the hearing, Chairman Davis stated, ``Any child's 
death is tragic, but the death of a child from abuse and neglect is 
especially troubling. Current data on the number of child deaths from 
maltreatment appear incomplete, and the difficulty in even compiling 
complete information undermines States' ability to develop effective 
strategies to prevent these tragedies from repeating. I look forward to 
hearing from GAO on the findings of their report as well as other 
experts on how we can improve our understanding of both how many 
children die from maltreatment and more importantly how we can use this 
information to do a better job preventing such tragedies in the 
future.''

FOCUS OF THE HEARING:

      
    The hearing will review data on child deaths due to maltreatment, 
determine how to improve the accuracy of this data, and review how 
improving the accuracy of this data may help prevent future fatalities.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. Attach your submission as a Word 
document, in compliance with the formatting requirements listed below, 
by the close of business on Tuesday, July 26, 2011. Finally, please 
note that due to the change in House mail policy, the U.S. Capitol 
Police will refuse sealed-package deliveries to all House Office 
Buildings. For questions, or if you encounter technical problems, 
please call (202) 225-1721 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons and/
or organizations on whose behalf the witness appears. A supplemental 
sheet must accompany each submission listing the name, company, 
address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman DAVIS. The hearing will now come to order. But 
before we begin, I would like to yield to the Chairman of the 
Ways and Means Committee, Dave Camp, who asked that the report 
from GAO that is the basis of our hearing be commissioned in 
the first place. He has long been a champion of these issues 
regarding children. And with that, I would like to yield to the 
distinguished Chairman, Mr. Camp.
    Chairman CAMP. Well, thank you very much, Chairman Davis. I 
wanted to thank our witnesses for being here today, and also a 
special thanks to GAO for completing this report on abuse and 
neglect and maltreatment of children. And having gotten a 
little bit of what the report may say, I understand that the 
reality is even more dramatic than the official estimates that 
we are getting.
    The purpose of this hearing, obviously, is to focus on 
child deaths due to maltreatment or abuse, neglect, however you 
want to describe it, and what government policies might be able 
to try to deal with this very critical issue.
    I want to thank all of our witnesses here, and Tamara, 
especially you, for highlighting this issue in a very public 
way and a very positive way, so we can hopefully make some 
progress on this.
    And I won't delay the hearing any longer, but appreciate 
the hard work that you and Mr. Doggett are going to be doing 
today. So thank you very much. Thanks a lot.
    Chairman DAVIS. Thank you, Mr. Chairman. With that, we will 
return to regular order. I thank the distinguished gentleman 
from Minnesota for yielding his chair to the Chairman, too.
    This is somewhat of a historic hearing in a couple of ways. 
One, I think the topic is certainly important. But for those of 
us that grew up in the era of black and white cathode ray TV 
tubes, this is the first Ways and Means Subcommittee hearing 
done in high definition.
    [Laughter.]
    Chairman DAVIS. I was told I had a great face for radio by 
my first media consultant. So some of us are going to have a 
particularly challenging experience here today.
    But with that, I appreciate all of the witnesses who have 
come, those concerned citizens, advocates from many different 
streams of thought with one common concern.
    When children die from maltreatment, it makes international 
headlines, as in the Caylee Anthony case that drew the focus of 
millions around the world in recent months. Unfortunately, the 
transience of the hype and passing interest of the population 
belies a much deeper challenge.
    And sometimes the death of a child from maltreatment gains 
attention due to the shocking details of the treatment while 
alive. That is what happened in the case of 13-year-old 
Christian Choate, an Indiana boy killed in 2009 after years of 
abuse, including being allegedly locked in a 3-foot-high dog 
cage.
    After his death, police found letters he had written about 
how he wondered when anyone would check on him or give him food 
or water. Christian asked why nobody liked him and how he just 
wanted to be liked by his family. It is hard to fully 
comprehend the death or the sadness this boy must have 
experienced during his too-short life.
    And sometimes the death of a child from maltreatment does 
not make headlines at all, possibly because it is not recorded 
as a death from maltreatment for a variety of reasons we will 
learn more about today.
    It is hard to know which child deaths are more tragic, 
those we know about or those we do not. But our job today is to 
make sure that all deaths of children due to maltreatment are 
recorded, so we can learn from all of them and use that 
knowledge to work with State and local partners to prevent more 
of these tragedies from occurring in the future.
    Our role here today is to be a voice for the voiceless, 
especially those children whose deaths are missing from 
official data today. The Federal Government estimates that 
1,770 children died due to maltreatment in 2009, the most 
recent year of data we have. But as we will learn today in 
today's hearing, that official data understates the total 
number of children who die due to maltreatment each year for 
numerous reasons. This undercount could be significant.
    GAO indicates that 24 States only report the deaths of 
children who had previous contact with a child welfare agency. 
Another study found child welfare agency records undercounted 
deaths by 55 to 76 percent. The bottom line is States are not 
reporting each child maltreatment death, and that makes it 
harder to prevent these deaths in the future.
    We welcome a range of experts today to help us understand 
how we currently count the number of children who die each year 
due to maltreatment, as well as to discuss flaws in the current 
system. These experts will also help us to determine how these 
systems can be improved, and how better information can help us 
better protect children, which is our ultimate goal.
    I want to commend Chairman Camp, who last year asked GAO to 
review and report on these issues, based on his concern that we 
are unfortunately not getting it right today. That GAO report 
is being released today, and is the backstop of GAO's testimony 
this morning.
    We also welcome experts from the broader community who have 
worked for years to prevent child deaths due to maltreatment. 
Our panel today includes Tamara Tunie, the spokesperson for the 
National Coalition to End Child Deaths, who has worked to raise 
the profile on this issue and better protect children. We look 
forward to all of our witnesses' comments, and thank them for 
their commitment to better protecting children from abuse and 
neglect.
    And I would say in the time that we have worked together on 
the Subcommittee, Ranking Member Doggett and I have had a 
commitment to correcting broken information processes, to be 
able to integrate sources, to remove obstacles and silos. And 
we are continuing to hold hearings like this to identify 
constraints that prevent the service providers, the caregivers, 
from doing their very, very critical job.
    Without objection, each Member will have the opportunity to 
submit a written statement and have it included in the record 
at this point.
    And now I would like to yield to my friend and 
distinguished Ranking Member from Texas, Mr. Doggett, for an 
opening statement.
    Mr. DOGGETT. Thank you, Mr. Chairman. Thank you for your 
commitment to this issue. Each weekend that my wife and I are 
back in Texas, we try to devote a little time to our three 
preschool granddaughters. The joy of being with them, their 
growth, their learning, their creativity, and also their 
innocence and vulnerability are in such contrast in homes where 
they are surrounded by love, with what we see played out in 
national TV with the abuse and death of too many young 
children.
    And so, today we conduct a bipartisan exploration of what 
we can do about the gap between those children, the many 
children in our country that are surrounded by loving and 
supporting families, and those who are not. And I think we 
recognize that the death of even one child due to abuse or 
neglect is just too many.
    We are aware that there are so many, many children across 
the country who lose their lives or are permanently scarred by 
abuse or neglect from a caretaker. We know that there are many 
reasons why this happens. But the goal of today's hearing must 
be to improve our understanding of these causes, and what we 
can do to prevent this kind of maltreatment of children. 
Certainly poverty, teenage parenting, substance abuse, and 
mental health challenges are among the considerations.
    We must ensure that we don't make matters worse than they 
are today by slashing services that are important to assure 
child protection, even though there are many gaps in those 
services. Nor can we afford to slash the wider safety net for 
our families.
    As my neighbor in Austin, Dr. Jane Burstain, eloquently 
states in a written testimony, ``To cut programs that support 
struggling families in tough economic times is the very 
definition of penny wise and pound foolish, and is a choice 
that our children could pay for with their lives.''
    Regrettably, the lives of children have not always gotten 
top priority. They are not necessarily, despite the full house 
today and the many effective advocates who are here, they are 
not necessarily the best lobbied force in the country. In my 
home State of Texas, the legislature just concluded with a 40 
percent cut, actually more than 40 percent, in certain child 
abuse prevention programs, even though my home State of Texas 
has one of the highest rates of child abuse and neglect deaths 
in the country.
    Here in Washington, I have concern about the proposal here 
in the House, the House Republican Budget Resolution, to 
eliminate the Social Services Block Grant program, which 
provides some funding that is very important in child 
protective services.
    And I am also concerned that the child welfare programs 
that we studied in our last Committee hearings, as well the 
TANF program, which is important in so many States for 
providing assistance to low-income families--those programs are 
about to expire. And we hopefully, as a result of the work of 
this Committee, can come up with bipartisan legislation to 
continue them, and learn from the experience.
    I have just recently filed legislation concerning the TANF 
supplemental grants, which were part of the original 1996 law 
that are very important in Texas and 15 other States in 
providing services.
    So, I hope that out of today's hearing we can gain more 
insight from our expert witnesses, and out of this can come 
together with effective legislation to try to respond to some 
of these matters that concern all of us so deeply.
    Thank you, Mr. Chairman.
    Chairman DAVIS. Thank you very much, Mr. Doggett. Before we 
move on to our testimony, I would like to remind all of our 
witnesses to limit their oral statements to 5 minutes. All of 
your statements will be entered into the record, and we will 
allow more time for discussion and for question.
    On our panel this morning we will be hearing from: Kay 
Brown, Director of Education, Work force, and Income Security, 
the U.S. Government Accountability Office; Tamara Tunie, actor 
from Law and Order: Special Victims Unit, and spokesperson for 
the National Coalition to End Child Abuse Deaths; Theresa 
Covington, the Director of the National Center for Child Death 
Review; Michael Petit, President and Founder of Every Child 
Matters Education Fund; Carole Jenny, M.D., Director of the 
Child Protection Program at Hasbro Children's Hospital in 
Providence, Rhode Island; and Jane Burstain, Senior Policy 
Analyst at the Center for Public Policy Priorities in Austin, 
Texas.
    Ms. Brown, please proceed with your opening statement.

STATEMENT OF KAY E. BROWN, DIRECTOR, EDUCATION, WORKFORCE, AND 
     INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. BROWN. Chairman Davis, Ranking Member Doggett, and 
Members of the Subcommittee, thank you for inviting me here 
today to discuss our work on this very important topic of child 
deaths due to maltreatment. My remarks are based on a GAO 
report that is also released today. I plan to cover three 
issues: the number of children who die from maltreatment; State 
reporting challenges; and HHS assistance to States.
    First, on the number of child deaths. Every year, children 
in the United States die after being physically abused, 
severely neglected, or otherwise maltreated, frequently at the 
hands of their parents or other trusted care givers. 
Unfortunately, we don't know for sure how many have died. Based 
on data reported by State child welfare agencies to the 
National Child Abuse and Neglect Data System, or NCANDS, we 
know that there were at least 1,770 deaths in fiscal year 2009.
    But this is likely an undercount. Almost half of these 
State agencies reported only those cases that were already 
known to them. Yet these agencies don't necessarily know about 
all children who die from maltreatment. Some children may not 
have been previously maltreated, or their earlier maltreatment 
may not have been reported.
    However, these deaths may be known to other sources, such 
as law enforcement agencies, medical examiners, coroners, or 
health departments. To illustrate this point, studies in a few 
States have combined information from several of these sources, 
and found that using the State child welfare records alone 
undercounted known fatalities by from 55 to 76 percent. 
Further, a national sample of 122 counties across the country--
again, using multiple sources--estimated 2,400 child deaths 
from maltreatment.
    Understanding the numbers and circumstances surrounding 
child fatalities from maltreatment can help inform prevention 
efforts. HHS prepares annual reports on the NCANDS data, which 
include a wealth of information on the children who have died, 
the perpetrators, and many other factors. However, we found 
that HHS does not include all of the potentially useful 
information it collects in its reports.
    In addition to NCANDS, State and local multidisciplinary 
child death review teams assess the causes of child fatalities, 
with an eye to improving investigations, services, and 
prevention. These teams, found in all but one State, don't 
review every death, but their reviews can provide more and 
richer detail on each case. Many States are now submitting data 
from these reports to the HHS-funded National Child Death 
Review Center, and the Center is beginning to analyze the data 
specific to fatalities from maltreatment.
    For my second point, States face multiple challenges that 
make it difficult to collect and report these data. For 
example, without definitive evidence, it can be difficult to 
determine that a child's death was, in fact, caused by 
maltreatment, rather than by natural causes. Further, resources 
are limited for autopsies and other tests, which can be 
expensive. Officials investigating fatalities may have 
differing skills, training, and experience, and coordination 
and data sharing across various agencies and jurisdictions may 
be hindered by concerns about privacy or confidentiality 
requirements, or by differing goals and cultures.
    On my third point, HHS provides a variety of technical 
assistance to States to help improve the data that they report 
to NCANDS. However, in our survey, State officials asked for 
additional assistance on collecting child fatality data, using 
it for prevention, and collaborating across agencies. We have 
made recommendations to HHS related to these and other issues.
    In conclusion, any child's death from maltreatment is 
especially distressing, because it involves a failure on the 
part of the adults responsible for protecting them. 
Policymakers and practitioners rely on data to understand the 
numbers and circumstances of these tragic deaths, and to learn 
from them to prevent other deaths. Without improving upon and 
better sharing these data, we lose precious opportunities to 
protect our children.
    This concludes my prepared statement. I am happy to answer 
any questions.
    [The prepared statement of Ms. Brown follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman DAVIS. Thank you very much, Ms. Brown.
    Ms. Tunie, if you could, give your testimony.

 STATEMENT OF TAMARA TUNIE, ACTOR, ``LAW AND ORDER: SVU,'' AND 
   SPOKESPERSON, NATIONAL COALITION TO END CHILD ABUSE DEATHS

    Ms. TUNIE. Good morning, Chairman Davis, Ranking Member 
Doggett, and Members of the Subcommittee. My name is Tamara 
Tunie. Many people know me in my role as Dr. Melinda Warner, 
the medical examiner on ``Law and Order: Special Victims 
Unit.''
    However, I am here today in my role as a concerned citizen, 
and as the spokesperson for the National Coalition to End Child 
Abuse Deaths. The Coalition is made up of five national 
organizations that came together over a common concern for the 
growing number of child abuse and neglect deaths in the United 
States. Those organizations are: The National Association of 
Social Workers; National Children's Alliance; National District 
Attorney's Association; Every Child Matters Education Fund; and 
the National Center for Child Death Review.
    I am honored to be able to speak to you today. On ``Law and 
Order,'' we investigate fictionalized crimes, and often have to 
deal with difficult story lines. But nothing compares to the 
real and tragic cases that we hear about with increasing 
regularity in the national headlines: Caylee Anthony in 
Florida; Marcella Pierce, from my home State of New York; and 
the gruesome story of Nubia Barahona, also in Florida.
    The unfortunate truths about these deaths is how common 
they are. Since becoming the Coalition spokesperson, I have 
learned about the thousands of American children dying at the 
hands of those who are supposed to love and protect them, and I 
am here to say that the need for action is critical.
    Unfortunately, the most startling truth about death from 
child abuse is how common it is. As we have heard and will hear 
today from the experts in this field, an estimated 2,500 
children die each year from abuse and neglect; that is 7 
children a day.
    It is not enough to feel saddened when hearing about the 
loss of innocent lives. We have an obligation, as adults and 
citizens, to protect those who have no power to protect 
themselves, who have no voice to address the powers that be, 
and obligation to prevent these fatalities.
    The first step in ending child abuse and neglect deaths is 
awareness of the problem, including the accurate collection of 
data regarding the number and circumstances of child deaths 
from maltreatment. We are all here today because Chairman David 
Camp, Chairman Geoff Davis, and Ranking Member Doggett, and the 
Members of the Subcommittee on Human Resources believe that 
this important issue deserves attention.
    On behalf of the Coalition, I want to thank you for holding 
a hearing on child abuse and neglect fatalities, and for your 
efforts to bring an end to the preventable deaths of children 
like Caylee, Marcella, and Nubia in the United States.
    Thank you so much for hearing my testimony.
    [The prepared statement of Ms. Tunie follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman DAVIS. Thank you, Ms. Tunie.
    Ms. Covington.

       STATEMENT OF THERESA COVINGTON, M.P.H., DIRECTOR, 
           THE NATIONAL CENTER FOR CHILD DEATH REVIEW

    Ms. COVINGTON. Thank you, Chairman Davis, Ranking Member 
Doggett, and Members of the Subcommittee, for providing me with 
this opportunity to speak to you. I serve as the director of 
the National Center for Child Death Review, with funding from 
the maternal and child health bureau at HRSA, HHS. We assist 
States in improving their child death review processes.
    CDR is a process in which profess--in which professionals 
from many agencies come together to share case records, look at 
the facts in the deaths, and decide what they will do to 
prevent these deaths in the future. Every State, except Idaho, 
tries to review all child abuse and neglect deaths at the State 
or community level.
    As described by the GAO, our center built and now maintains 
the national CDR case reporting system, which 39 States are 
using and submitting reports on all of the child deaths that 
they review. This allows for the collection of comprehensive 
information on child deaths, because it is a compilation of the 
information shared by all the agencies at a review meeting.
    The system collects data on the child, their care givers, 
the supervisors, the perpetrators, the investigation, the 
circumstances in the death, and actions taken to prevent other 
deaths. The report tool has over 1,800 data elements, and as of 
today we have 94,473 deaths in the system, of which 8.3 percent 
were due to child abuse and neglect, which is 7,894 little 
children like Casey Anthony's.
    And the GAO report is right. We know that more children die 
from abuse and neglect than is reported through NCANDS, from 
vital records, or law enforcement databases alone. The CDC had 
funded a child maltreatment surveillance project in seven 
States, and I was the PI in Michigan. In an average year, 
Michigan had reported 16 child abuse deaths through death 
certificates, law enforcement records, 26, child protective 
services, 40 deaths. When child death review synthesized these 
multiple sources of data, the actual number was at least 100 
deaths a year.
    And we just did a quick count of child abuse and neglect 
deaths reported through State child death review annual 
reports, and compared them to the NCANDS data for those same 
years: 15 States reported 1,029 states [sic], compared with 516 
in the NCANDS report.
    I agree with the GAO findings on some of the reasons for 
the under-reporting. Deaths due to neglect are especially 
under-reported, and most deaths from neglect happen when care 
givers egregiously fail to protect a child from hazards: 
toddlers drowning in bath tubs, children dying in-house fires 
when left alone, children left in cars on hot days, infants 
suffocated while sleeping with their intoxicated parents.
    And different States have different definitions of abuse 
and neglect. What Mississippi might call abuse, Connecticut 
might call a bad accident, or vice versa. And States even 
differ on who makes the call, whether it is a CPS worker, the 
coroner, law enforcement, the prosecutor. And States have 
different criteria for how they count the deaths into NCANDS, 
into our system, and into other systems. There is also wide 
variation in the quality of child death investigations across 
the country, so that when the deaths aren't well investigated, 
we don't really know what happened.
    On a positive note, we know that when we count deaths right 
and do reviews well, prevention happens. That is why it is so 
important that we investigate, count, and review all of these 
deaths. I could spend all day here describing efforts 
implemented across the United States through child death 
review. Some specific to your States include: Kentucky 
implementing new fire safety education for families, because of 
deaths in which children died and adults survived. Georgia, 
Louisiana, Michigan, Minnesota, New York, North Dakota, and 
Washington implemented major public awareness campaigns on 
shaken baby prevention and safe infant sleep. North Dakota 
improved death reporting policies to CPS. Tennessee developed 
evidence-based home visiting programs. Texas is training all 
CPS workers in infant death investigation. A number of States 
have changed mandatory reporting policies to CPS, for example, 
requiring reports even if there are no survival siblings [sic].
    And I agree with the GAO recommendations to improve 
comprehensiveness, the quality, and the use of national data on 
maltreatment deaths. And I look forward to being part of the 
solution, working with ACF, NCANDS and others, to identify how 
we can share and use all of our data to prevent these deaths.
    I also ask that you require national standards and child 
maltreatment definitions and in reporting. And I ask that you 
call for a national commission to further study this issue.
    But our States also need additional resources. States 
certainly need emergency help now, as--for child protection, as 
their resource are dwindling while child abuse and neglect is 
increasing. We should not be a nation that fixes its budget at 
the expense of abused and neglected children. Other than the 
$600,000 in funds allocated for our resource center, there is 
no dedicated funding to States for child death review or for 
the reporting system. Fortunately for us, a private company 
based near Goddard recently offered to build our new software 
for us.
    Chairman David, Mr. Doggett, and those of you on this 
Committee, later tonight please think about the 7 or 8 or maybe 
even 10 children who will have died today because someone who 
is supposed to tuck them in at night killed them instead. And 
then tomorrow, begin work on your Committee to take action to 
keep our children alive. Thank you.
    [The prepared statement of Ms. Covington follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman DAVIS. Thank you, Ms. Covington.
    Mr. Petit.

STATEMENT OF MICHAEL PETIT, PRESIDENT AND FOUNDER, EVERY CHILD 
                     MATTERS EDUCATION FUND

    Mr. PETIT. Chairman Davis, Ranking Member Doggett, Members 
of the Subcommittee, thank you for convening this hearing and 
for the opportunity to testify on this issue. I am Michael 
Petit, president of Every Child Matters Education Fund.
    I have been involved with child maltreatment fatalities for 
over 40 years, and I am sad to say that, despite great 
increases in our overall knowledge about child welfare, the 
situation facing these children has improved very little over 
that period of time. I was formerly with the Child Welfare 
League of America for a dozen years. I served as Maine's human 
services commissioner, which had responsibility for child 
welfare and child protection. I am also the author of a 
publication called, ``We Can Do Better: Child Abuse Deaths in 
America.''
    I will devote my testimony to an overview of child abuse 
fatalities. Others will speak specifically to the data issues 
that are raised in the GAO report.
    To start with, child abuse rates are much higher in the 
U.S. than in other democracies, triple Canada's rate, 11 times 
Italy's rate. The official tally of almost 1,800 deaths a year 
we believe is significantly undercounted, that there are, in 
fact, 2,500-plus deaths a year, about 5 times the number of 
U.S. soldiers killed in 2 wars since the beginning of our 
study.
    Some 80 percent of the children killed are under the age of 
4; 50 percent are under 1. Black children are nearly three 
times more likely to be killed. The vast majority of children 
are from low-income, low-education families. And of the 51 
children randomly selected for our report--some of you may have 
seen this report; if not, we can make it available to you--
there are 51 children here. In the course of our study period, 
going back to the start of the Afghan-Iraq wars, there were 400 
children behind each one of these pictures. Of the 51 kids that 
we selected at random, only 1 was killed with a knife or a gun. 
The other 50 were principally--the principal cause of death was 
being beaten to death.
    Our collective systems of child protection are stretched 
too thin. Too many troubled families, too few social workers 
and other staff, and too little community support. Few of the 
thousands of child protective units in the States are 
adequately equipped to deal with all the families brought to 
their attention. Consequently, protection for many children is 
a matter of geography. Where a child lives may determine 
whether she lives or dies. Some States appear to have a 10 
times greater death rate than others. Some States appear to 
spend five times more than others on child protection. I say 
``appear,'' because of a lack of acceptance of standard 
definitions in the field. We don't really know.
    Child abuse flows from extensive child maltreatment in the 
U.S., nearly three million reports a year, and preventable 
deaths are inevitable when we are drawing from such a large 
pool of vulnerable children.
    A major factor, lack of public awareness about the scope 
and size of the problem, directly related to restrictive 
confidentiality laws, which--we hope one of the things that you 
will do is examine those laws and make modifications in them. 
They shield the press, public officials, and the public from 
shortcomings. And we made recommendations for--in 2009 that 
have been presented in this committee; 150 child protection 
experts met for a couple of days.
    Let me say that I have had extensive personal experience in 
dealing with child fatalities where data interfered with the 
protection of a child. During my stint as Maine's commissioner 
of human services, we had a little girl that was presented to 
us by her family at 5:00 on a Friday afternoon.
    Our social worker called the local mental health center and 
said, ``Is the father of this child taking his medications? We 
know that he is a mentally ill individual, and he is not taking 
the medication.'' They said, ``We are not going to share that 
information with you, there are confidentiality issues for the 
parent, and we are not going to give you the information.''
    One hour later, that child was put in an oven, the oven was 
turned on, and the child died in the oven. It was a very tragic 
incident that put our whole State of Maine in a state of shock 
for weeks.
    And I have provided specific consultation to counties all 
across the country on this business of bringing together the 
information from law enforcement, child protection, the mental 
community, mental health. And I am sad to say that, in most 
communities, there is not a sharing of that knowledge. And, in 
many instances, the civil legal protection system for children 
is not enough. The criminal justice system also needs to be 
brought into play, and we need to afford more progress in that.
    Let me say in my remaining moments that the adherence and 
development of national standards in this area is critical. Are 
these children Texas children first, or are they Vermont 
children first, or are they American children first? That is an 
issue, the national standards.
    The support of a commission to examine these child abuse 
deaths is critical, it is a very complex topic. The increase 
in--I mentioned. And then, I think, a public education campaign 
is critical in this area.
    I will close my remarks with that, and I have submitted 
more detailed testimony elsewhere.
    Thank you.
    [The prepared statement of Mr. Petit follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman DAVIS. Thank you very much, Mr. Petit.
    Dr. Jenny.

  STATEMENT OF CAROLE JENNY, M.D., DIRECTOR, CHILD PROTECTION 
              PROGRAM, HASBRO CHILDREN'S HOSPITAL

    Dr. JENNY. Chairman Davis, Ranking Member Doggett, and 
Members of the Subcommittee, I thank you for the opportunity to 
testify on child deaths due to maltreatment.
    I am a professor of pediatrics at Brown Medical School, and 
the director of the child protection program at Hasbro 
Children's Hospital in Rhode Island. I have a unique 
perspective on this issue, because I may be the only person in 
this room who often has stood at the bedside in the emergency 
department or in the intensive care unit, and actually 
witnessed the deaths of infants and children from maltreatment.
    When the death of a child is the result of abuse or 
neglect, a sad event becomes an immense tragedy. The 1,700-
yearly child maltreatment deaths officially reported are just 
the tip of the iceberg. As the GAO report points out, counting 
and tracking the number of deaths from maltreatment is 
challenging.
    Sometimes it is very difficult to distinguish between 
accidental and non-accidental death. For example, when a child 
is purposely suffocated with a pillow or a plastic bag, it can 
be impossible to distinguish this act from a death by natural 
causes.
    In addition, many deaths from neglect are not counted as 
such. In Rhode Island, a three-year-old was told by his drunken 
father to go across a busy street to retrieve a discarded lamp 
from a neighbor's trash. He was hit by a car and killed, and 
his death was ruled an accident.
    And what about deaths caused by the late effects of 
maltreatment? If a teenage survivor of horrific sexual abuse 
commits suicide because of her severe depression and post-
traumatic stress, is that considered a child abuse death? In my 
opinion, the root cause of death in that case is child 
maltreatment.
    My interest is in providing more accurate primary data to 
the agencies that track child maltreatment deaths. These 
agencies cannot perform well if the cases they review have not 
been adequately investigated. The pediatric profession has 
recently made a giant leap in improving this process. The 
American Board of Pediatrics has established the board-
certified pediatric sub-specialty of child abuse pediatrics.
    These pediatricians complete an additional 3 years of 
fellowship training in child maltreatment, becoming experts in 
the recognition, diagnosis, treatment, and prevention of child 
maltreatment. When a child does die from abuse or neglect, 
these pediatricians can help police, forensic, and social 
service agencies make the correct diagnosis by doing the 
appropriate medical work-up in the hospital, and by ruling out 
conditions that mimic abuse or neglect.
    There are--there is currently no Federal support for 
training pediatric sub-specialists in child abuse pediatrics. 
We need to expand the availability of fellowships, to make sure 
that these doctors are available to all hospitals around the 
country that care for children. The National Association of 
Children's Hospitals and Related Institutions has published 
recommended guidelines for the establishment of child 
protection teams at all children's hospitals, but there are not 
enough trained, board-certified pediatric specialists in the 
field to provide this expertise.
    Another way to increase the accurate counting of child 
maltreatment deaths is to increase the resources available to 
medical examiners and coroners, and to support their 
performance of quality death investigations. Multiple studies 
have shown that only about half of the child maltreatment 
deaths are actually recognized and recorded on death 
certificates and in State vital statistics.
    In summary, in addition to improving our method of counting 
child maltreatment deaths, we need to improve our ability to 
recognize and discern when a death is due to child 
maltreatment. And if we have the resources to diagnose abuse 
and neglect, and provide the necessary treatment and services 
to children and families, we can actually prevent the ultimate 
worst outcome, the death of a child.
    It is important to note that strengthening the quality of 
medical and death investigations in child abuse cases adds 
another protective factor. That is, we will be better able to 
protect innocent parents from allegations of child abuse and 
neglect, and to preserve and promote families.
    Thank you.
    [The prepared statement of Dr. Jenny follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman DAVIS. Thank you, Dr. Jenny. With that, I would 
like to defer to the distinguished Ranking Member to introduce 
the next witness.
    Mr. DOGGETT. I am very pleased to have join our panel Dr. 
Jane Burstain. Dr. Burstain is responsible for child welfare 
and child protective service budget issues at the Center for 
Public Policy Priorities in Austin, Texas. It is located in the 
same neighborhood that is my home in east Austin. And CPPP is a 
non-profit, non-partisan think tank that has played a vital 
role in Texas, particularly on State legislative issues 
committed to improving the economic and social condition of low 
to moderate-income Texans.
    Before she came to east Austin, Dr. Burstain served as an 
adjunct professor at Pepperdine, where she taught family policy 
classes. And she worked as an attorney representing children in 
the Los Angeles child welfare system. So we really have this 
coast-to-coast problem and insight offered by our panelists 
this morning.
    Thank you, Doctor.

   STATEMENT OF JANE MCCLURE BURSTAIN, PH.D., SENIOR POLICY 
          ANALYST, CENTER FOR PUBLIC POLICY PRIORITIES

    Dr. BURSTAIN. Thank you. Chairman Davis, Ranking Member 
Doggett, and Members of the Subcommittee; thank you for the 
opportunity to come testify on this important and tragic issue.
    As Representative Doggett mentioned, I have worked in the 
child welfare arena for more than a decade. I started out as an 
attorney in Los Angeles, and during my six-year tenure there 
representing thousands of abused and neglected children, I 
became interested in taking my experience and translating it 
into systemic improvement. I earned my Ph.D., and in 2008 I 
joined the Center for Public Policy Priorities in Austin, 
Texas.
    At the Center, I conduct research, I participate in State 
and national coalitions, and I educate policymakers on how to 
improve and create better outcomes for children and families.
    Let me start by saying that I absolutely agree with 
Representative Doggett, that even one child death from 
maltreatment is too many. It is the ultimate tragedy for the 
family and the community, and for the individuals who have to 
investigate it. But every single day in the United States more 
than four children are reported to have died from abuse and 
neglect. That is one death every 6 hours. And those are just 
the ones that we know about. As all the witnesses have 
testified here, the number of children dying from maltreatment 
is probably even higher.
    As discussed in my written testimony, and as adequately and 
extensively documented by the witnesses here, we do need to do 
a better job with States getting more quality, comprehensive, 
and consistent data on child maltreatment deaths. But with 
children dying every day, we cannot wait for the data to be 
perfect before we act. So I am going to focus on what we do 
know.
    We know that even taking reporting differences into 
account, some States have higher child maltreatment death rates 
than others. We also know that poverty and having a teen parent 
are significant risk factors for abuse and neglect, and that 
those risk factors are more prevalent in certain States.
    So, I looked at States with high child poverty rates and 
high teen birth rates, which include many of the States 
represented on the panel today in this committee, and I looked 
to see if those States, on average, also had higher child 
maltreatment death rates. I found that States with high child 
poverty had a 43 percent higher death rate, on average. And I 
also found that States that had a 
high teen birth rate had a 61 percent higher death rate, on aver
age.
    As families struggle and stress levels rise, child 
maltreatment becomes more of a risk. And this risk is only 
growing. The great recession has pushed more families into 
poverty. As compared to 2008, the number and percentage of 
children living in poverty has increased nationwide in 
virtually every State. And although the teen birthrate has 
dropped nationwide, some States still struggle with the issue. 
In Texas, in 2008, there were 55,000 births to teenage girls.
    If we want to reduce child maltreatment, now is not the 
time to cut support to struggling families. But as States 
grapple with huge budget deficits, that is exactly what is 
happening. The number of children receiving child abuse and 
neglect prevention services has declined in 17 States, many of 
which are represented here on the Subcommittee.
    In Texas, with more than 1.6 million children living in 
poverty and at risk for maltreatment, there is only funding for 
about 6,000 to receive direct child abuse and neglect 
prevention services. Budgets are so tight that States are even 
cutting services to children who have been subjected to abuse 
and neglect.
    In 2009, in some States, 2 of every 3 children who are 
child abuse and neglect victims stayed in their home and did 
not receive any ongoing child welfare family support services.
    Early education and child care programs, which have been 
shown to reduce aggressive parenting behavior and maltreatment 
are being cut, as well. Getting children out of the home and 
into daycare reduces parental stress, and makes the children 
more visible to reporters who can identify a problem before it 
escalates into something serious. But in Texas's most recent 
budget, the legislature cut grants to support pre-kindergarten 
by 100 percent, and cut $.20 of every dollar that funds 
subsidized daycare to at-risk children. That is why Federal 
programs which help support struggling families, like title IV-
B of the Social Security Act, the child care development block 
grant, and the supplemental TANF grant are so important.
    Expanded health insurance options for adults under the 
Patient Protection and Affordable Health Care Act is important, 
as well. With health insurance, poor parents are struggling 
with substance abuse and mental health, can get access to 
services, and thereby reduce the risk factors for reduce and 
neglect, get healthy, and take care of their kids.
    I know that the budget crisis that is facing States extends 
to the Federal Government. But to cut programs that support 
struggling families in tough economic times is the very 
definition of penny wise and pound foolish.
    And if we make that choice, our children will pay for it 
with their lives.
    [The prepared statement of Dr. Burstain follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman DAVIS. Thank you very much. We will move to 
questions now.
    In today's testimony we have heard a variety of numbers. I 
know, from my professional experience, whether it was in the 
military, in business, and certainly in the morass of 
Washington, D.C., you can't fix what you can't measure. And 
this is going to be one of the central questions, particularly 
numbers of how many children die due to maltreatment each year.
    States reported over 1,700 deaths in 2009 to HHS. GAO cites 
this figure, and also a number from the HHS national incident 
study of child abuse and neglect that estimated 2,400 deaths 
over 2 years, from 2005 through 2006.
    Ms. Tunie mentions 2,500 deaths from maltreatment per year, 
as does Mr. Petit. Ms. Covington speaks more generally about 
the undercount she witnessed in Michigan and reviewed in 
Nevada.
    Ms. Brown, your report details a number of reasons to 
believe current data understates the number of children who die 
from maltreatment. In terms of scale, how many deaths do you 
believe were missing each year? Tens? Hundreds? Thousands? What 
is a better number if the HHS official estimate of 1,770 is an 
undercount?
    Ms. BROWN. The challenge there is finding good research 
that actually measures these issues. And we did a very careful 
literature review of all the research that looked at the 
numbers of child fatalities from maltreatment, and none of them 
are perfect. That is the problem.
    You know, the one that has the relatively high percent of 
child welfare undercounts covers only three States. The one 
that comes up with 2,400 reaches across a number of different 
partners, but it is such a small population that they captured, 
that it is hard to be really, really confident in the data.
    So, we know--we have seen differences in hundreds. We have 
seen as much as 1,000. I would like to see a much better 
process for getting this information, so we can actually know.
    Chairman DAVIS. What were the States that--the three 
States----
    Ms. BROWN. In the study?
    Chairman DAVIS. Yes.
    Ms. BROWN. California, Michigan, and Rhode Island.
    Chairman DAVIS. Okay, thank you. Would anybody else care to 
comment on this issue? Mr. Petit?
    Mr. PETIT. Yes, I would just note that there are three 
peer-reviewed articles that appeared in prestigious health and 
scientific journals that speak to the undercount being at least 
50 percent. One is the Journal of the American Medical 
Association, one is the Journal of Pediatrics, and one is the 
Journal of Public Health. Each of them have extensive 
documentation they put forward that say the number appears to 
be at least a 50 percent undercount, which is how we arrive at 
the 2,500 figure. But no one could defend that number as being 
precise, that being the whole purpose of the GAO study, is to 
help show just how deficient measuring is.
    Chairman DAVIS. Anybody else like to share? Ms. Covington?
    Ms. COVINGTON. I personally believe it is probably 100 
percent undercount. I think we should double the number, when 
you take into account neglect deaths. Just looking at the 15 
States that we did briefly before we came here, we doubled the 
number of States that actually reported--you know, when you 
looked at that versus when was NCANDS, it was double. And I 
think that that is probably true across the country. So, I 
personally would double the number.
    Chairman DAVIS. Okay, thank you. Any other----
    Mr. PETIT. May I just say, as an example of what we get 
at--we had a case one time in which it was an open child 
protective case. They lived on a third or fourth floor. The 
mother experienced an overdose. The two-year-old child went 
down to the street, was run over by a car. And in most States 
that is listed as a pedestrian accident, not the child abuse 
and neglect-related death that it is.
    Chairman DAVIS. So you are saying, for example, connecting 
the different parts of the law enforcement investigation to 
collate that data would be helpful?
    Mr. PETIT. Let me just say that when we have done that with 
law enforcement, the medical community, and others--and 
district attorneys--it is tremendously revealing to see what 
actually happens, the disposition of cases.
    Child welfare can say, ``Here is 100 certified cases in 
which child sexual abuse,'' for example, ``occurred.'' Police 
might say, ``We can identify 75 cases where there was a 
perpetrator.'' There may be 25 cases that are reported to the 
district attorney. The district attorney may choose to 
prosecute 10, because they don't think the data is good enough, 
in terms of supporting the evidence, and you may end up 5 
convictions and 2 or 3 sentences to prison--which I am not 
saying is the answer to this whole problem--but they are not 
tracking those numbers. They are keeping their information 
separately. And when it is blended together they can see where 
the structural problems are in the system.
    Chairman DAVIS. Before I yield to Mr. Doggett, something I 
would throw open to the members of our panel, if you have 
suggested process improvement ideas--particularly as we can tie 
a cost to them, or reduce that cost burden, to get this linkage 
of data. We found, in many institutional settings, a great 
amount of success in removing error, unnecessary cost, and 
other problems--or quality issues, in a more generic sense--but 
in this case it might lead to a solution to these problems.
    With that, I yield to Mr. Doggett.
    Mr. DOGGETT. Thank you, Mr. Chairman. Dr. Burstain has put 
this in terms of one child losing a life every 6 hours. Ms. 
Covington, I gather what you are saying is it could be as much 
as one every three hours, or one every 2 hours. And that is 
what several of you have said with reference to the data, that 
those figures that are widely acknowledged are probably much 
greater than our understanding. Right?
    And I----
    Ms. COVINGTON. Yes, correct.
    Mr. DOGGETT. And I gather that for everyone here, if we 
could do something to prevent just one of these horror stories 
that will take place in the next 6 hours or the next 3 hours or 
the next 2 hours, we would want to do that.
    As policy experts looking more broadly across the country, 
beginning with you, Dr. Burstain, what can we do to prevent 
these tragedies? We want to have an accurate count, certainly, 
and I think there are measures to get a better count. But we 
are not counting beans here. We are counting precious 
children's lives. What are the things that the Congress should 
be doing now, beyond getting a more accurate count, to be sure 
that that rate doesn't go higher?
    Dr. BURSTAIN. Thank you. Well, in addition to funding the 
programs that support struggling families, I think one of the 
things that could really be helpful is the title IV-E waiver 
program that has passed through the House.
    Basically, one of the problems with the child welfare 
system overall is, with the funding streams, you have title IV-
B, which is a block grant, and that is the money that States 
have flexibility to use for prevention programs, and to keep 
kids safe in their own home. Title IV-E basically covers foster 
care and adoption, so it covers the back end. And that 
represents a much larger part of the Federal financing on child 
welfare.
    And so, if you had a waiver program where States could take 
the money that they would have spent on foster care and spend 
that same money up front to keep kids safe, to prevent child 
abuse and neglect from occurring in the first place, I think it 
would go a long way toward really helping these families keep 
their children safe.
    I think funding child care is another really important 
issue. Child care is something that can really help--just 
getting the child out of the house relieves parental stress. 
And I think, most importantly, the parents, when their kids are 
in child care, know that someone is going to be looking at that 
child. And if there is a problem, and the child is coming with 
a bruise or seems to be unkempt, there is someone who can see 
that child every day and make a report and have the child 
protective services system intervene before a problem occurs.
    Because one of the problems with child maltreatment deaths 
is a lot of those deaths happen, and the child welfare system 
doesn't even know about those kids. And so it is not as if the 
child welfare system is investigating these difficult families 
and not doing a good job of intervening. They don't even have 
an opportunity to intervene, because most of these are young 
kids who are not in school, and so no one sees them. And if you 
get child care for these struggling families, you eliminate 
that problem.
    Mr. DOGGETT. What will be the effect on this problem of 
child abuse, or child deaths, if the Social Services Block 
Grant is eliminated, if TANF supplemental grants in States like 
Texas are not continued, and they are set to expire within 
days, and if we don't have unemployment benefits available for 
families?
    Dr. BURSTAIN. Well, I can tell you with respect to the 
Social Security block grant and the TANF. Those are programs 
that, I know in Texas, they use to directly support child 
welfare services. So those are grants that are not only used to 
help generally families in poverty, but are specifically used 
to help families that are at risk of abuse and neglect, or have 
actually subjected their children to abuse and neglect, and 
they are in the system.
    Mr. DOGGETT. And you are saying--just to interrupt you for 
a minute--that in Texas the cuts have been so severe already, 
even without losing these programs, that some families already 
identified as actually having had cases of abuse or neglect no 
longer get the services?
    Dr. BURSTAIN. Yes. The services rate for child maltreatment 
victims in Texas is at about 45 percent. So about 4 of every 10 
children who have been identified as abuse and neglect victims 
receive ongoing child welfare services. And, as I testified 
about earlier, in some States that rate is even lower, and 
you've got 7 of every 10 children staying in the home and not 
getting services.
    Mr. DOGGETT. Ms. Tunie, you represent an impressive 
coalition of social workers and others. Are there 
recommendations that you have, with regard to what steps we can 
take to prevent this death rate from accelerating, from matters 
getting worse?
    Ms. TUNIE. Yes. In agreement with Dr. Burstain, to simplify 
it--because I am not an expert on this issue--funding is 
critical, and services are critical. And the ability to collect 
the data accurately is critical.
    Mr. DOGGETT. Thank you.
    Chairman DAVIS. Thank you. The gentleman's time has 
expired. I would like to share with Dr. Burstain that Mr. 
McDermott and I introduced the child welfare waiver bill 
addressing this IV-E issue that passed out of the House in May. 
I encourage you to call your friends in the U.S. Senate, and 
encourage them to move faster than their glacial pace to 
address these things.
    [Laughter.]
    Chairman DAVIS. The chair now recognizes Mr. Paulsen from 
Minnesota.
    Mr. PAULSEN. Thank you, Mr. Chairman. Ms. Brown, may I ask 
you a question regarding the report? The report explains the 
two primary sources of data that we have on child maltreatment 
fatalities, and the data reported to HHS and the data reported 
through State child death review teams. What does HHS do with 
the data, exactly, other than just publish summaries of the 
information?
    Ms. BROWN. The NCANDS data that HHS collects is used for--
because they oversee the State programs--it is used for things 
like checking to see if the States are abiding by their 
expectations when they do their reviews of each State program.
    They also use them to--they have measures that they are 
expected to meet each year,for example, knowing the number of 
deaths from maltreatment and foster care.
    But the other thing, as far as the more on-the-ground 
information, is that they have some technical assistance 
centers, and there is one that deals specifically with child 
protective services. And that center has done some training to 
try to push the information out.
    Mr. PAULSEN. And then what do the States do with their 
child death review team data, the States, specifically?
    Ms. BROWN. I am wondering if I am the right person to 
answer that.
    Mr. PAULSEN. Ms. Covington is nodding her head. Okay, 
please.
    Ms. COVINGTON. Forty-four States require that they use 
their data for a--to publish a State annual report on their 
deaths, which would include child abuse deaths, as well as 
other deaths. Most States are really getting smart about 
actually creating--they--almost all the States have a State-
level advisory board that reviews those findings before the 
report gets issued, and they make recommendations to their 
Governors and their State legislatures on policy and practice.
    Mr. PAULSEN. Okay.
    Ms. COVINGTON. And some of them have been very successful, 
actually, in getting those things--their recommendations 
implemented.
    Mr. PAULSEN. Sure, Mr. Petit.
    Mr. PETIT. Yes, Mr. Paulsen, if I may say, all together 
there is about $30 billion spent on the child welfare system, 
the formal child welfare system. About 55 percent of that is 
State and local, mostly State. About 45 percent of that is 
Federal.
    There is a very weak Federal oversight of the child welfare 
system. They provide most of the money, and they actually--the 
Federal Government actually provides the statutory framework 
within which most State child welfare systems operate.
    I would assert flatly that virtually every single State in 
the country right now is vulnerable to a successful class 
action litigation being brought against them, and States 
repeatedly lose those when, in fact, such class action 
litigation is brought against them.
    There are very few sanctions ever imposed by the Federal 
Government, even when States are out of compliance for many, 
many years, in contradiction to what Federal standards and 
oversight requirements exist.
    Mr. PAULSEN. And, Ms. Tunie, maybe you can just tell me. 
What does your National organization do with the information in 
general, as you collect the info and get the data?
    Ms. TUNIE. Well, our mission, basically, is to raise 
awareness of the issue, and also to urge Congress to take 
action.
    Mr. PAULSEN. Okay. And, by the way, thank you for helping 
raise awareness on this issue. And, obviously, this hearing is 
a part of that effort. And, I mean, what other recommendations 
do you have for us as individual Members in our own districts, 
in our own States, to also help raise awareness about this 
issue, other than just going through numbers and data.
    Ms. TUNIE. Yes. You know, I think it is really important to 
put a face on it. The book that Mr. Petit put together, where 
you really see the faces of these children, and it really 
becomes a personal, as opposed to just a number or a statistic. 
I think that is a great way to raise awareness.
    Mr. PAULSEN. Thank you, Mr. Chairman.
    Ms. TUNIE. Thank you.
    Mr. PAULSEN. Yield back.
    Chairman DAVIS. Thank you. The chair recognizes the 
gentleman from Washington, Mr. McDermott.
    Mr. MCDERMOTT. Thank you very much. I have watched these 
hearings since 1970, when I was in the State legislature. And 
States always lurch forward after a horrible event. It is over, 
and over, and over, and over again.
    And, Mr. Petit, you just sort of said that there is a 
tremendous problem, and most States would be vulnerable. Let's 
go on the positive side. Tell me the States where they have the 
best system for getting these cases and preventing them. 
Because it seems to me the problem is we are always coming in 
at the back end, looking at the problem, when it is already in 
the hands of the coroner.
    And so, what I am interested in is what States have had the 
best system in place to predict and deal with and prevent?
    Mr. PETIT. Let me--I think that is a more complicated 
question than I am going to spend time answering, in the sense 
that there are literally thousands of child protection offices 
across the country.
    Mr. MCDERMOTT. Yes.
    Mr. PETIT. Many States run it through their county system. 
And we have done studies looking at outcome measurements for 
the States, and they vary wildly, so that the differences 
between virtually any indicator you want to choose, removing 
children from their family, reports of child abuse, fatalities, 
foster care, et cetera, the variations between the bottom State 
and the top States may have multiples of five or tenfold.
    But I will tell you the States that do the best overall are 
the ones that have smaller, whiter populations. So where--which 
translates into less poverty and less complicated issues around 
domestic violence, around imprisonment issues, around substance 
abuse. So all the States experience it, but some States 
experience much more than others.
    If you take a look at the overall distribution of these 
issues, they are concentrated especially most severely in the 
States with large minority populations. And I say that, saying 
that that correlates, in turn, with high rates of poverty in 
those communities.
    But if you wanted to look at a State that probably has had 
a significant effect in dampening down the overall amount of 
child abuse to begin with, which is the ultimate goal that we 
all have, we would say, like, Vermont, where they have 
comprehensive health care services, where there is home 
visiting for virtually all children. There is an extensive 
safety net that is built around welcoming a child and a family 
into the community, and people taking collective responsibility 
for overseeing what is happening with those children and 
families.
    There are a number of other States as well, but when you 
get into the big States--Texas, Florida, California--it is 
very, very challenging to manage the huge volume of cases that 
are brought to their attention in the first place. Remember, 
that number now is about three million reports of child abuse. 
HHS in their national incident study says the true number is 
closer to probably nine million cases of child abuse and 
neglect each year.
    Mr. MCDERMOTT. When you sit at the Federal level, when you 
sit at this dais, and you look out on the United States, and 
you try and figure out what should we do, then the question 
that--I mean, Dr. Jenny raises the question of more pediatric--
pediatricians trained in looking at the issue. Where are the 
other gaps in training that we should put money or think about?
    I mean we get into these stovepipe things because we try 
and figure out how to deal with it. But I would like to hear 
the other areas where you think there is a need.
    Ms. COVINGTON. I think, without question, our death 
investigation system is--really needs assistance throughout the 
country. In my home State of Michigan there is a number of 
medical examiners that tell you if you die in the first half of 
the year you are going to get a really good autopsy and 
investigation. If you die in the second half, it is going to 
not be so good, because they run out of money. And that is a 
reality.
    And without really quality death investigations, we are 
just not getting the answers we need around these child abuse 
deaths. So I think training and resources for improved death 
investigations would be one area.
    Dr. JENNY. I would like to say that the medical profession 
does a very bad job of recognizing abuse. I did a study and I 
published in Journal of American Medical Association, where we 
looked at 131 abusive head trauma admissions to our hospitals, 
serious abuse. And a third of those kids had a previous head 
injury from abuse, went to the doctor, and the doctor missed 
the diagnosis. Eight of those kids died.
    And I think that there is very little education about 
family violence, about child abuse, in medical schools, in 
residencies. And I think that that is a place where we could 
really ramp up the prevention by early recognition.
    Mr. MCDERMOTT. Is there a place for nurse practitioners in 
that kind of a thing?
    Dr. JENNY. Absolutely. Nurse practitioners, PAs, even 
nurses. I did a study in Colorado where we looked at the amount 
of time in nursing school curriculums that was spent on family 
violence. It was less than 2 hours in a four-year curriculum.
    So, I think that this is something that would be relatively 
easy to do, just by putting more emphasis on this in our 
professional societies and our curriculums in schools.
    Chairman DAVIS. Great, thank you very much.
    Mr. MCDERMOTT. Thank you.
    Chairman DAVIS. The gentleman's time has expired. Mr. Reed 
from New York.
    Mr. REED. Thank you, Mr. Chairman. Thank you to the panel. 
I come at this issue--when I first started my law practice we 
did a lot of law guardian work, and represented many abused and 
neglected children. And there is nothing more touching than 
that experience, and frustrating, and emotional, and it creates 
a lot of anger in me, individually, to see parents abuse their 
children.
    So, that being said--and I get the argument from all the 
testimony--I was reading this last night, and I get the 
argument we need increased funding, we need to protect the 
funding. You know, the environment we live in here in 
Washington, D.C., so--and I don't want to spend a lot of time 
on that issue, just to articulate that I get it, and I 
understand that.
    What I would be interested--what I am interested in talking 
about today is kind of a new way of looking at this issue. I 
think, from all the testimony that I have heard and I have 
read, each of the members of the panel here today would agree 
that poverty is a higher indication of child death from the 
parents from abuse and neglect of parents, and substance 
abuse--would all agree is a higher indication of death of a 
child.
    That being said, I then--does it not beg the question, a 
common sense question of targeting our resources by requiring 
parents who are on public assistance--i.e. public assistance, 
the people that are in poverty are more likely to be on public 
assistance--parents in that program, require them to be drug 
and alcohol tested?
    We are talking about the death of children. And I 
understand there is going to be many parents that are going to 
be alcohol free and substance abuse free, and I get that. But 
if we are talking about saving the death of children, does that 
not trump the benefit that we could receive from identifying 
the higher-risk children through testing their parents for 
substance and alcohol abuse?
    Dr. Burstain, would you have any comment on that?
    Dr. BURSTAIN. Well, first, I think that I completely agree 
with you, that we should be looking at ways that we can prevent 
child abuse and neglect deaths.
    I will say that drug and alcohol testing is expensive. So 
if you are talking about not wanting the Federal Government and 
not wanting the States to have to spend more money----
    Mr. REED. So if we can we get the cost taken care of----
    Dr. BURSTAIN. Well----
    Mr. REED. I mean you are asking for money elsewhere, so if 
you get the money----
    Dr. BURSTAIN. Yes, absolutely. And I would say that that 
money would be better spent, instead of drug and alcohol 
testing, all of the individuals who are receiving public 
assistance, I would say that money would be better spent 
actually getting drug and alcohol treatment.
    Mr. REED. Well, not everyone that is on public assistance, 
just parents that have children in the home be tested. I am 
talking about a very narrow program, trying to narrow it down--
--
    Dr. BURSTAIN. Wait----
    Mr. REED. Just parents.
    Dr. BURSTAIN. I----
    Mr. REED. Not all those on public assistance.
    Dr. BURSTAIN. I believe the majority of people who are 
receiving public assistance have children.
    Mr. REED. Okay.
    Dr. BURSTAIN. And so the majority of those people would be 
tested. And what I would say is that money that you would spend 
on testing--because what are you going to do if they turn out 
positive? The money would be----
    Mr. REED. We would coordinate that information with CPS and 
with law enforcement, target those individuals, intervene, make 
sure that those parents are getting substance counseling, 
trying to lead them to a substance-free life, and that will 
lower the risk of death to their children, which all of you 
agree has created a higher risk for those children that are 
living in that environment.
    Dr. BURSTAIN. You would be----
    Mr. REED. So that would be my----
    Dr. BURSTAIN. You would be absolutely right, if there was 
money for treatment. But there isn't money for treatment. And 
so, what I would say is, instead of spending your money on 
testing people who you have no basis to believe are actually 
abusing substances, I would spend the money on providing 
services to the people you know are abusing substances.
    Mr. REED. And when they----
    Dr. BURSTAIN. So once they become involved in the child 
welfare system, you need to get them access to substance abuse. 
And, more importantly, mental----
    Mr. REED. So we have to wait until they abuse their 
children before we get--because once they abuse their children, 
they are in the CPS system--then we can get them the substance 
abuse treatment that they need?
    Dr. BURSTAIN. Absolutely you do not have to wait. One of 
the things that I highlighted in my testimony is that, under 
the new Health Care Reform Act, getting people health 
insurance--one of the reasons people don't get treatment, and 
before they actually become involved in the child welfare 
system, is poor adults a lot of times don't have health 
insurance. And so the only way they can get treatment is become 
involved in the child welfare system, and get services through 
the child welfare system.
    Mr. REED. Okay. I notice my time is--Mr. Petit, you are the 
commissioner of----
    Mr. PETIT. Child welfare.
    Mr. REED. Child welfare in Maine.
    Mr. PETIT. I would just note that the Congress and the 
Senate had legislation introduced more than 10 years ago on 
making substance abuse treatment moneys available to State 
child protective agencies whenever that was identified as being 
an issue. And certainly there is a high relationship between 
the two. But the Senate Finance Committee never held a hearing 
on the bill. It was introduced in three consecutive legislative 
sessions to provide assistance in that case.
    Now, that little girl that was baked to death in an oven 
that I mentioned, I remember the Governor saying to me, ``Stop 
this. Take these children from these families and get--stop 
this issue.''
    I said to the Governor, ``This is the first death we have 
had in four years. There are 12,000 children or so in our open 
protective custody in any given moment. And in the course of a 
year, 1 or 2 might die, even though this problem that you just 
described exists maybe in 60, 70, 80 percent of the 
households.''
    So, I think there is a way to target this much more 
specifically, so that you get at what you are talking about.
    May I suggest--I have been doing this for 40 years. This is 
a panel that has been involved with this for a long time. I 
cannot emphasize enough the need for a national commission that 
brings together all of the different disciplines. We are 
talking about nothing less than healthy, human growth and 
development, which is a very complex topic, which hasn't been 
looked at by this congress, by any Administration in decades. 
The last that I know of was the Rockefeller Commission. That 
was almost 20 years ago. We have had no national White House 
conferences in this country since 1970.
    This is an issue that has--receives very scant attention by 
the public. And it needs to be opened up. And that is why I 
would recommend this national commission and, at the same time, 
lift the confidentiality requirements.
    Chairman DAVIS. I appreciate your passion, Mr. Petit. That 
is one of the reasons we are having this hearing today, is to 
move forward----
    Mr. PETIT. Thank you, sir.
    Chairman DAVIS [continuing]. On this. And, with that, we 
will recognize the gentleman from Georgia, Mr. Lewis, for 5 
minutes.
    Mr. LEWIS. Thank you, Mr. Chairman. Thank you, Mr. Chairman 
and Ranking Member Doggett, for holding this hearing.
    I have been here for almost 25 years, and attended many 
hearings. But this has been one of the most painful. What some 
of you have said is almost unreal, unbelievable. But I know it 
is real. I know it is believable. In my own district, in my own 
State of Georgia, just watching the news, reading the 
newspaper, seem like something happened to some little child, 
somebody child, somebody baby, almost every other day.
    And, Mr. Petit, I would really like to know from you. You 
mentioned race and poverty. It is not something that we should 
sweep under the rug or in some dark corner. We should face it, 
and face it head on. Could you tell me--maybe some of you have 
data, information on the State of Georgia--but could you tell 
me or speak to the whole issue of young families where there is 
a father, a mother, a boyfriend, a girlfriend with a child? 
Reading that something happened to this child. The child was 
beaten or left alone and died. What is happening there?
    Ms. Tunie, I love what you said about putting a face on it. 
How do you dramatize that? How do you make it real? How do you 
sensitize and educate the American people that this is a major 
problem and we have to face it?
    I think there is a great undercount, Ms. Brown. I think 
there is a great undercount.
    Mr. PETIT. May I say very directly? The legacy of slavery 
endures. The behavior that we are talking about is 
manufactured. It is not innate to any particular culture or any 
DNA. And in the black community what you have is a very high 
out-of-wedlock birth rate. You have a very high poverty rate. 
You have a very high imprisonment rate of young males.
    The family formation in the black community has been 
extremely challenged in the last few decades, and the research 
that does exist shows that children in a home with an unrelated 
male are almost 100 times more at risk of dying than when there 
is a biological-related father in the household.
    So, I have just made some broad-sweeping statements on 
this. I believe it requires a much closer look. But there are 
realities, in the black community in particular, which shows in 
this report that there is a three times higher fatality rate in 
the black community. But it is manufactured behavior that 
contributes to it.
    Mr. LEWIS. Could you speak about poverty? Ms. Covington, 
you wanted to say something?
    Ms. COVINGTON. I was going to add on to that. There was a 
headline in the Washington Post yesterday. Keith Jackson wrote 
a story, and the headline was, ``Would Anybody Have Cared if 
Caylee Anthony was of a Different Color?'' And I think that is 
really important, because when we look at these deaths across 
the country, there is no question that the white, you know, 
middle-income kids who die at the hands of their care givers 
get a lot of attention. But African American kids are really 
over-representative in the numbers, and poverty is a huge 
correlation in these deaths.
    In fact, in a lot of the neglect cases, that is one of the 
reasons they don't get counted, because, you know, people give 
a little room there when there is poverty issues tied in to 
some of the parental responsibility problems, in terms of--they 
are living in poor families, and so there is--that is one of 
the reasons they don't get counted as well.
    But then it leaves us with numbers that don't make a whole 
lot of sense, and it doesn't give us the ability to actually be 
able to respond to those cases.
    Mr. LEWIS. Any other member of the panel?
    Mr. PETIT. On the poverty question, if I may say, in 1960 
the poorest cohort were seniors, the--children were the second 
poorest cohort. In 2010, children are the most poor cohort and 
seniors are the least poor cohort. The Federal Government is 
spending 7 times more per senior over 65 than per child under 
the age of 18.
    And if you look at the Federal benefits that go to seniors, 
they are the same from one end of the country to the next. They 
are the same in Maine as they are in Texas as they are in 
Hawaii. That is true with Medicare, that is true with Social 
Security.
    When you look at the income security programs for children, 
and the health care programs for children, they are largely 
left up to the States to shape, which, in fact, is attributable 
to some of the poverty that we are talking about, is that there 
is wide variation among the States in dealing with this issue.
    Chairman DAVIS. All right, thank you. The gentleman's time 
has expired. I would like all the Members to know that in the 
back of your packets or binders is State-specific information 
for your home States on this data from the Congressional 
Research Service.
    And with that, I would like to recognize Mr. Berg from 
North Dakota for 5 minutes.
    Mr. BERG. Thank you, Mr. Chairman. This is--you know, has 
to be one of the worst crimes that can be committed, a crime 
against a child. I--you know, these stories you talk about, 
putting a face on it, I mean it is just horrific.
    My wife is a family practice doctor. And one of her most 
difficult days is when she recognizes abuse in a child. And in 
our State of North Dakota, the support for her has been 
outstanding, to get that child in a good environment, a safe as 
possible environment.
    But, you know, in the discussion--I guess, Ms. Brown, the 
discussion really relates around this coordination. And I guess 
I am confused that, you know, almost half the States that are 
reporting this data are just kind of regurgitating data that 
you already have. And it seems to me that these States really 
should be accessing other information that they have in their 
States, whether that is a death certificate, medical 
examination after death, or the child death review team 
structure, which, to me, seems like an outstanding--somewhat 
volunteer, but again, you can bring some real experts into 
that.
    So, I guess I'm just asking, how do we get more accurate 
information? Not necessarily recreating the wheel, but how can 
we get more of a response?
    Ms. BROWN. Well, it seems to me that we have two places in 
the count where the response breaks down. And the first one is 
related to identifying whether a death is caused by 
maltreatment. And we have heard about how challenging that can 
be.
    And then, the second one is, as you referred to, collecting 
the data from the community in a way that can give a more 
complete picture. And I agree that the child death review teams 
that are on the local level can be very, very useful, because 
that is a vehicle for bringing different organizations 
together.
    And part of the issue there is trust, and having personal 
relationships. So, if you have a vehicle that regularly brings 
them together, that could make a difference, and it doesn't 
cost much.
    Mr. BERG. Well, and it--again, our overall objective here 
is really to prevent this from happening. And, you know, we are 
gathering this data, and as I look at this data it is--I mean 
it is as accurate and current as you can get it, but we are 
years and years behind.
    And so, again, it seems to me that what you are talking 
about there on the local area--and again, you have a large 
State, very populous, or a small State--if you could create a 
system where you have local experts that are getting that 
accurate information, but also thinking what steps can be done 
on the local level and on the State level to, you know, again, 
catch these children.
    So that brings up the other question, and I just am always 
frustrated by the lack of communications between different 
agencies. And it seems to me, if you took this further in a 
local, you have the child death review committee and they are 
identifying certain trends, or certain things that really stand 
out--let's take drugs, for example, drug abuse. If they are 
saying that this is something that is a real--it is in almost 
every one of these cases, how can they access the other 
agencies within that local community that could identify and 
share that information, so rather than reactively waiting, 
become more proactive and encouraging these people to get 
treatment or having a higher level of watchfulness over that 
child? Please.
    Dr. JENNY. One thing that I think is very helpful is 
hospital-based child protection teams. Because that is a 
place--in children's hospitals they have teams that meet weekly 
and go over every case that has been in that jurisdiction--not 
of deaths, but of kids that have been abused or neglected. And 
it is a proactive process.
    And having more support in the children's hospitals for 
child protection teams is going to, I think, make a big 
difference because we all talk to each other and we do a lot of 
preventative work up front to avoid those deaths at the back 
end.
    Mr. BERG. Sure.
    Ms. COVINGTON. I think, too, there is a trend in States for 
more improved coordination of just general child protection 
investigations. Some States actually require it, even though 
they don't necessarily follow through on making sure that those 
investigations are done in a coordinated way.
    But in places where they are done in a coordinated way, I 
think there is profound improvements in the way kids are 
identified, because you have got--you have law enforcement, the 
prosecutor, mental health, education, social services, they are 
all at the table--public health, they are all at the table, 
looking at this child from a more comprehensive----
    Mr. BERG. It seems that those are best practices we could 
share with other States, if we had a little more----
    Mr. PETIT. May I say that, actually, there is a lot of this 
going on right now through the Department of Justice? And one 
of our coalition members is the National Children's Alliance. 
And there are some 800 local jurisdictions that have district 
attorneys, child protection, law enforcement, medical, that 
come together, typically around child sexual abuse cases.
    And may I just say in your own State of North Dakota, where 
I had the privilege of spending the better part of a year doing 
a project on child well-being for the North Dakota legislature, 
that year North Dakota ranked first or second in the national 
Kids Count survey. But if you had taken the 7 percent of 
children who are Native American and put them in a new State of 
East Dakota, they would have ranked 51st.
    And so, the data kind of misrepresented what the overall 
well-being was. It took us a year to get data from the Native 
community. It was this question of trust. And they finally put 
their numbers on the table. It created a new North Dakota 
Commission on Indian Affairs and Child Welfare. And I have been 
curious--this was 15 or 20 years ago--to see what impact 
finally putting that data on the table had, which is what the 
legislature was looking for. They didn't know how to help the 
community----
    Mr. BERG. Right.
    Mr. PETIT [continuing]. Without the numbers, and they 
didn't want to start spending money without the numbers.
    Chairman DAVIS. Thank you very much. The gentleman's time 
has expired. And Mr. Crowley from New York, you are recognized 
for 5 minutes.
    Mr. CROWLEY. Thank you, Mr. Chairman. Let me sincerely 
thank you for holding this hearing today, and my colleague, Mr. 
Doggett, for bringing this issue that really, in light of the 
Caylee Anthony case, didn't necessarily need to be highlighted, 
but I think in terms of what we, as a nation, are doing to 
combat the abuse of children is certainly needed.
    And I wonder whether or not the attention we have here 
today would be as strong if it were not for this particular 
case. I--and, Ms. Tunie, I appreciate your lending your voice 
and your face to this issue, and all the panelists here today. 
But this is a disturbing yet necessary subject matter that 
needs to be addressed. And I wonder, though, whether or not we 
would have the same attention we have today--I think you would 
be, and I think all of you and the panelists would be, but I am 
not so sure the media would be as strong as it is today.
    Whether or not the death of Caylee Anthony was by means 
or--of--caused by accidental neglect or first degree murder, at 
the end of the day that young child was killed, and may very 
well have been preventable if signs were--and steps were 
taken--if signs were seen, and proper steps were taken to 
prevent that. And I think the death of any young child, if it 
can be prevented, we should be doing everything we can to do 
that.
    I have been involved in this area for some time, going back 
to my days in the State legislature. I chaired a Subcommittee 
on child product safety. I was concerned by maybe not even 
accidental neglect, just the aspiration of small parts in toys, 
and children dying from what appeared to be the cause of 
pneumonia, when, in fact, it was they had aspirated a small 
plastic piece into their lungs, and therefore, only through 
autopsy later on was this found, to more high-profile today of 
baby cribs.
    I would like to ask the witnesses--you know, because I know 
the GAO report has been focusing on the proper gathering of 
statistics, and questioning whether or not we actually are 
getting all the reportable statistics and compiling them 
correctly to really get an understanding of the breadth and the 
extent of neglect that is taking place. But whether or not--it 
doesn't really address the issues of what to do once we have 
that information.
    And I know my colleagues have asked this in some ways, but 
what else can we be doing to raise awareness? I know in a State 
like mine, in New York, we have--we have seen success in public 
awareness campaigns, especially as it pertains to the issue of 
shaken baby syndrome, as well as safe sleeping for children. 
What else can we be doing? What can we be doing to help parents 
that may not be mindfully neglectful?
    If you just--they have tough lives right now. The economy 
being where it is, and the stress that that brings to bear on 
people's lives, they would never put themselves in the category 
of being accidentally neglectful, you know. What can we be 
doing to help those folks, as well?
    And other care givers that just may be unaware of the 
dangers in everyday situations--for instance, like bath tub 
safety and crib safety and choking hazard safeties? What could 
we be doing to help those folks?
    Dr. JENNY. One thing that your State has done, has been--
nurse home visitation to young families, particularly at-risk 
young families. And they have done a randomized control trial 
where they have found actually that over the years it decreases 
welfare dependency, it increases the educational level of the 
child in 15, 20-year followups, and also, it decreases the 
abuse rate and also the illness rate.
    So, David Olds model nurse home visitation would be an 
excellent model for prevention.
    Ms. COVINGTON. And that was funded in the Health Care 
Reform Act, and all States are now going to start doing that. 
And I think that that is really, really important, that that 
stay there and be a large part for every State to be able to 
have those dollars to be able to do those family home visits, 
because it is one of the very few demonstrated evidence-based 
practices that we know could actually reduce child 
maltreatment.
    That is part of the things I think we can do, is try to 
figure out what really does work, because the research is 
limited. Funds to figure out what really works for families is 
limited. So there is little research looking at evidence-based 
practices, but I think we need to keep doing that work. And 
then, when we find something that works, make sure it gets out 
to the general public and to communities, so they can start 
implementing these practices.
    Chairman DAVIS. Thank you very much. The gentleman's time 
has expired. I would like to thank all of our witnesses for 
your time and preparation, for your staffs, the investment of 
research, and also helping us understand this very critical 
issue further.
    If Members have additional questions, they will submit them 
directly to you in writing. And what we, on the Committee, 
would ask is that you also send a copy of your response back to 
us at the Subcommittee, so that we can insert it into the 
record, as well.
    Thank you again for highlighting this very critical 
subject. And, with that, the Committee stands adjourned.
    [Whereupon, at 11:26 a.m., the Subcommittee was adjourned.]
    [Questions for the Record follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
